<html>
<title> - THE VIEWS FROM SATURN</title>
<body><pre>[Senate Hearing 108-960]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-960
 
                         THE VIEWS FROM SATURN

=======================================================================


                                HEARING

                               before the

                 SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, 

                               AND SPACE

                                 of the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 22, 2004

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
82-205                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                                 ------                                

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                    SAM BROWNBACK, Kansas, Chairman
TED STEVENS, Alaska                  JOHN B. BREAUX, Louisiana, Ranking
CONRAD BURNS, Montana                JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
JOHN ENSIGN, Nevada                  BYRON L. DORGAN, North Dakota
GEORGE ALLEN, Virginia               RON WYDEN, Oregon
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     FRANK R. LAUTENBERG, New Jersey


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 22, 2004....................................     1
Statement of Senator Brownback...................................     1

                               Witnesses

Figueroa, Orlando, Director, Solar System Exploration Division 
  and Mars Program Office, Office of Space Science, National 
  Aeronautics and Space Administration; accompanied by Mark Dahl, 
  Cassini Program Executive and Denis Bogan, Cassini Program 
  Scientist......................................................     2
    Prepared statement...........................................     5


                         THE VIEWS FROM SATURN

                              ----------                              


                        THURSDAY, JULY 22, 2004

                               U.S. Senate,
    Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m., in 
room SR-253, Russell Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.

               STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. The hearing will come to order. Thank 
you all for joining us today. We've got another exciting space 
hearing. For a guy who grew up on a farm to be able to talk 
about Saturn, this is fun, and to be able to do that.
    I want to welcome you, Mr. Orlando Figueroa, NASA Solar 
System Exploration Director, today, delighted to have you here 
with your colleagues to discuss the spectacular discoveries of 
the Cassini Huygens mission to Saturn. I'm awestruck at the 
pictures, the images I see coming back, and the exploration 
that has occurred. As I travel around my home state of Kansas, 
so too are the American people.
    A few months ago, we watched just two small emissaries from 
Earth. The Mars Rover found evidence for a complicated and 
interesting past history on the planet Mars, including the 
probable presence of significant water on its surface at some 
time in the distant past. Now we watch as NASA's mission to the 
giant planet Saturn unfolds. Already we are discovering truths 
about our own planet's past. Saturn represents a miniature 
solar system, and by studying it, we can learn more about how 
Earth came to be as it is in the larger solar system.
    I have several thoughts I'd like to share with you in which 
I'd like your response to. First, both the Saturn mission and 
the Mars mission represents considerable international 
cooperation. In both cases, the United States worked closely 
with our international partners, particularly those in Europe, 
to achieve a mission which is more than the sum of its 
international parts. I think the key in establishing 
relationships is where partners assume a significant portion of 
the overall mission and are not just subcontractors on a U.S. 
mission. This, of course, means they assume responsibility for 
funding their portion of the program.
    In the cases of both Mars and Saturn, they have done just 
that. I believe this is an essential template as we embark on 
even more impressive exploration in support of the President's 
expanded vision of space exploration, culminating in human and 
robotic exploration of the moon, Mars, and beyond.
    My second observation concerns opportunities in the private 
sector. I note that both Cassini and the Mars Rover were built 
by the most private sector of the NASA centers, the privately 
managed jet propulsion laboratory. The recent Aldridge 
Commission recommended that all the NASA centers move toward 
this private sector management approach. This is an essential 
step, and I intend to work hard to make it a reality.
    However, I do not think merely managing government centers 
by a private concern is sufficient. If we are to achieve the 
true promise the solar system offers our children, we must 
energize the full talents of the real private sector, men and 
women willing to spend their own hard-earned resources in space 
in order to achieve the benefits of the new opportunities 
there. I think this must start as it did with our own expansion 
across the continent two centuries ago. As the government leads 
pathfinding exploration of the moon and Mars, it should 
purchase its tools and information from that private sector, 
just as the government explorers purchased their provisions 
from private settlers and outfitters in the 19th century, 
beginning with Lewis and Clark.
    I must tell you I'm in that way somewhat challenging to 
NASA's approach to the first new robotic mission in support of 
the President's vision, the lunar reconnaissance observer to be 
launched in 2008. This seems to me to be another government-
developed, built, and operated system, not really different 
from the past. And I would hope NASA would look at that and we 
can have some discussion on that today of why it's not turning 
more to the private sector on that issue.
    So as we ponder the wonder and opportunity in the solar 
system, I'd like to focus our attention on the future. These 
magnificent pathfinding missions are only a taste of what's to 
come in science, discovery, and most important of all, 
opportunity. I believe a new paradigm in our relationships with 
international partners is beginning. I also hear the words of 
the Aldridge Commission and others calling for a renewed 
commitment to private opportunity, and let's make that one real 
too.
    Mr. Figueroa, thank you very much for coming here today. I 
want to congratulate you and NASA on a spectacular Saturn 
mission thus far. It really has been mind-opening and another 
great success, so I'm delighted to hear that, delighted to see 
that, wanted to have you here today to be able to present that, 
and then I hope along the way you can answer the two issues 
that I raised at some point as well.

            STATEMENT OF ORLANDO FIGUEROA, DIRECTOR,

           SOLAR SYSTEM EXPLORATION DIVISION AND MARS

       PROGRAM OFFICE, OFFICE OF SPACE SCIENCE, NATIONAL

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION;

 ACCOMPANIED BY MARK DAHL, CASSINI PROGRAM EXECUTIVE AND DENIS 
                BOGAN, CASSINI PROGRAM SCIENTIST

    Mr. Figueroa. Yes, indeed. Good afternoon and thank you 
very much, Mr. Chairman. I am very pleased to be here this 
afternoon to discuss the latest success in NASA's space science 
program, Cassini's arrival at the lord of the rings, the planet 
Saturn.
    I want to thank you for holding this hearing and for your 
continued support for our programs. I have written and 
submitted my written statement and also have left a copy of 
this package for you where exquisite details about the mission 
is provided.
    Senator Brownback. Your full statement will be put in the 
record.
    Mr. Figueroa. Thank you. If I may, I want to take a moment 
to introduce my colleagues, Dr. Denis Bogan to my left, the 
program scientist for the Cassini mission, and Mr. Mark Dahl, 
the program executive from the mission, both from the NASA 
headquarters.
    Senator Brownback. Welcome, gentlemen.
    Mr. Figueroa. They will certainly help me answer 
engineering and science questions that you and others may have.
    Today I'm providing summary remarks of my testimony and beg 
ahead of time for your indulgence for such an exciting topic, 
as it is the arrival at Saturn, and will probably take a few 
extra minutes, not many but just a couple.
    Senator Brownback. Please take the time you need.
    Mr. Figueroa. Now, almost 7 years ago, on October 15, 1997, 
to be exact, an anxious and excited group of NASA employees, 
the European Space Agency, the Italian Space Agency, 14 other 
contributing countries, and thousands of spectators watched as 
a massive Titan IV rocket lifted off Pad 41 at Cape Canaveral 
Air Force Station and sent the Cassini spacecraft and its 
Huygens probe on its long journey to unlock the secrets of 
Saturn and its largest moon, Titan.
    After having traveled more than 2 billion miles on a 
journey that included two gravitational assist flybys of Venus, 
one of Earth, and one of Jupiter, I am delighted to say that 
the 2,000 pound, nuclear energy-enabled Cassini spacecraft 
started its maneuver to enter Saturn's orbit at 7:26 p.m. 
Pacific time on June 30.
    After what seemed like an eternity, we got confirmation 
that the 96-minute engine burn necessary to reduce Cassini's 
speed was a success and Cassini was safely in its proper orbit. 
This opened a whole new chapter of space exploration. Cassini's 
four-year mission of discovery and science promises to surprise 
scientists and all the public around the world. Seventy-six 
Saturn orbits with 44 Titan flybys should make for an exciting 
campaign of exploration around the gas giant, and this is 
indeed a giant planet.
    Unlike the two Voyager missions that flew by Saturn in the 
early 1980s and obtained just days' worth of close-in science, 
Cassini Huygens will be for Saturn what the Galileo mission was 
for Jupiter, a long-term science observatory. Cassini's Saturn 
approach science campaign began in January of this year, and 
the majestic image of Saturn presented on my opening is a 
product of such a campaign. Upon its arrival, Cassini awed us 
with fantastic early images and data. After only 3 weeks in 
orbit, we have already discovered a number of new things, some 
of which I would like to share with you today.
    We have learned that Saturn's moon, Phoebe, has a surface 
covered with craters of varying size, probably from meteorite 
impacts. The images and data have led scientists to believe 
that the tiny object may contain ice-rich material overlain 
within a thin layer of darker material perhaps ejected by the 
impacts themselves.
    Early mapping with spectrometers illustrate what we know 
today about Phoebe's composition. This has led some to suspect 
that Phoebe may have originated in the outer solar system, 
perhaps in the Kuiper Belt, and have been captured by Saturn's 
gravity, a longstanding theory. Just 2 days after the Cassini 
spacecraft entered Saturn's orbit, preliminary science results 
are already beginning to show a far more complex and 
fascinating new world, as illustrated by the next two images, 
where the structure and dynamics of the rings is evident.
    The first image illustrates a complex structure that 
resembles braiding in the outer two rings. Although such 
braiding seems to have been stable for a long time, we do not 
know what could cause such structure.
    The second image illustrates the rippling that suggests an 
unknown dynamic process shaping the edge of the ring, perhaps 
due to an unseen moonlet. We observed hints of these ripples 
with Voyager, but now we can see them with much greater 
resolution.
    While Saturn's rings are almost exclusively composed of 
water ice, new findings show that they contain relatively more 
dirt than ice in some regions. Further, the particles between 
the rings seem remarkably similar to the dark material that 
scientists now see on Phoebe. These dark particles refuel the 
theory that the rings may be the remnants of the moon.
    The day after orbit insertion, Cassini revealed surface 
details of Saturn's moon, Titan. Titan's atmosphere is opaque 
at most wavelengths, but the spacecraft captured some surface 
details, including possible evidence of a geologically active 
surface through infrared wavelengths in which the atmosphere is 
clear. The light blue around the edge of the disk is the 
atmosphere. The white spot, now known as the south polar cloud, 
is believed to be methane and seems to be persistent.
    A number of long held ideas are being challenged by the 
early Titan results. Surface areas of high reflectants seem to 
be composed of mixtures of water ice and complex hydrocarbons, 
while dark areas are just water ice. These observations are 
exactly backward from our expectations. Once again, Saturn 
didn't read our books.
    No evidence has been found for liquid hydrocarbons in pools 
or lakes. These results have raised questions about whether 
Titan possesses a primordial soup of hydrocarbons that could 
yield insights about the prebiotic chemistry of Earth. We 
cannot wait for the future flybys of Titan at a much closer 
distance. The first flyby occurred at roughly 300,000 
kilometers from the moon.
    We are delighted with the surprises thus far and what they 
have revealed in the Cassini mission in these early stages, 
surprises at the very heart of science. If there were no 
surprises, it wouldn't be science, but we have only begun to 
scratch the surface. We are in the very early stage of this 
fascinating mission. There will be much more science ahead. We 
eagerly await December 24 when the Huygens probe, built by the 
European partners, begins its descent toward the murky and 
mysterious moon, Titan.
    At this moment, Cassini is on a long path toward it before 
it will turn around again and come inward toward Saturn on its 
way to the next Titan encounter. Let us catch our breath and 
prepare for more astonishing discoveries in the days to come.
    [The prepared statement of Mr. Figueroa follows:]

   Prepared Statement of Orlando Figueroa, Solar System Exploration 
        Director, National Aeronautics and Space Administration
    Mr. Chairman and Members of the Subcommittee, I appreciate the 
opportunity to appear here today to discuss NASA's Cassini-Huygens 
mission. This has been an amazing year for NASA's Space Science 
Program. In January, we landed the twin rovers Spirit and Opportunity 
on the surface of Mars, and they have been sending back incredible 
scientific data and images since then. Then, just a few short weeks 
ago, the world watched again in awe as we navigated the Cassini 
spacecraft into orbit around the ``Lord of the Rings''--the planet 
Saturn.
Mission Overview
    The Cassini mission is an international cooperative effort of NASA, 
the European Space Agency (ESA), and the Italian Space Agency (ASI) to 
explore the planet Saturn. Eighteen highly sophisticated science 
instruments (twelve in the Cassini orbiter, and six in the Huygens 
probe) will study Saturn's rings, icy satellites, magnetosphere and 
Titan, the planet's largest moon. In December of this year the Cassini 
spacecraft will release the Titan atmospheric probe (Huygens) for its 
descent through the murky atmosphere of Titan. The probe will collect 
data on the composition of Titan's atmosphere and haze layers, and may 
also create an image of Titan's surface. Understanding the chemistry of 
Titan's atmosphere may be key to understanding the evolution of early 
life on Earth. After delivering Huygens, the Cassini spacecraft will 
perform several flybys of Saturn's icy satellites, acquire data on 
Saturn's rings from various angles, perform radar mapping of Titan's 
surface, and take measurements of Saturn's atmosphere, magnetic field, 
and charged-particle environment. Cassini's primary science mission 
tour is scheduled for 4 years of observations.
Why Saturn?
    Saturn offers a rich scientific environment to explore. While the 
other giant planets, Jupiter, Uranus, and Neptune, have rings, the 
rings of Saturn are unique in the solar system in their extent and 
brightness. They are the signature feature by which Saturn is known. 
The planet and the ring system serve as a physical model for the disc 
of gas and dust that surrounded the early Sun and from which the 
planets formed. The success of searches for other planetary systems 
elsewhere in our galaxy partly depends upon how well we understand the 
early stages of the formation of planets.
    Detailed knowledge of the history and processes now occurring on 
Saturn's elaborately different moons may provide valuable data to help 
understand how our Solar System's planets evolved to their present 
states. Represented among Saturn's collection of moons are a huge 
variety of chemical, geologic and atmospheric processes. Physics and 
chemistry are the same everywhere, and the knowledge gained about 
Saturn's magnetosphere or Titan's atmosphere will have applications 
here on Earth.
    Chief among Cassini's goals within Saturn's system is the unmasking 
of Titan. Titan is the only moon in the Solar System that possesses a 
dense atmosphere (1.5 times denser than Earth's). The fact that this 
atmosphere is rich in organic material and that living organisms, as we 
know them, are composed of organic material is particularly intriguing. 
(``Organic'' means only that the material is carbon-based, and does not 
necessarily imply any connection to living organisms.) Forty-four of 
Cassini's 76 orbits through the Saturnian system will include Titan 
flybys, and the Huygens probe is dedicated to the study of Titan's 
atmosphere.
    After decades of speculation and experiment in the modern age, 
scientists still seek fundamental clues to the question of how life 
began on Earth. Most experts suspect that life arose by chance 
combinations of complex carbon compounds in a primeval soup. But all 
studies of life's origin are hampered by ignorance about the chemical 
circumstances on the young Earth. By understanding what starting 
material was present at the beginning of life on Earth, we will better 
understand our early beginnings. Cassini-Huygens' study of Titan may go 
far toward providing the answer to these and many other questions.
    In our Solar System, only Earth and Titan have atmospheres rich in 
nitrogen. Earth's siblings in the inner solar system, Venus and Mars, 
possess carbon-dioxide atmospheres, while Jupiter and Saturn resemble 
the Sun in their high content of hydrogen and helium. Hydrocarbons like 
the methane present on Titan may have been abundant on the young Earth.
    The importance of Titan in this connection is that it may preserve, 
in deep-freeze, many of the chemical compounds that preceded life on 
Earth. Some scientists believe we will find that Titan more closely 
resembles the early Earth than Earth itself does today.
    The results from Cassini's instruments and the Huygens probe, along 
with the results of our continuing explorations of Mars, Europa and the 
variety of life-bearing environments on Earth, will significantly 
enhance scientific efforts to solve the mystery of our origins.
Saturn's Allure
    Saturn is easily visible to the naked eye, and was known to ancient 
peoples around the world. It was not until the invention of the 
telescope, however, that Saturn's characteristic rings began to come 
into focus.
    The Italian astronomer Galileo was the first to look at Saturn 
through a telescope in 1609-10. Viewed through Galileo's crude 
instrument, Saturn was a puzzling sight. Unable to make out the rings, 
Galileo thought he saw two sizable companions close to the planet. 
Having recently discovered the major moons of Jupiter, he supposed that 
Saturn could have large moons, too. Galileo was even more astonished 
when, two years later, he again looked at Saturn through his telescope 
only to find that the companion bodies had apparently disappeared. The 
rings were simply ``invisible'' because he was now viewing them edge-
on. Two years later, they again reappeared, larger than ever. He 
concluded that what he saw were some sort of ``arms'' that grew and 
disappeared for unknown reasons. He died never knowing that he had been 
the first to observe Saturn's rings.
    Nearly half a century later, the Dutch scientist Christiaan Huygens 
solved the puzzle that vexed Galileo. Thanks to better optics, Huygens 
was able to pronounce in 1659 that the companions or arms decorating 
Saturn were not appendages, but rather the planet ``is surrounded by a 
thin, flat ring, which nowhere touches the body.'' His theory was 
received with some opposition, but was confirmed by the observations of 
Robert Hooke and Italian-French astronomer Jean Dominique Cassini.
    While observing Saturn, Huygens also discovered the moon Titan. A 
few years later, Cassini discovered Saturn's four other major moons--
Lapetus, Rhea, Tethys and Dione. In 1675, Cassini discovered that 
Saturn's rings are split largely into two parts by a narrow gap--known 
since as the ``Cassini Division.''
    NASA's Pioneer 11 spacecraft in 1979, and a few years later the 
NASA Voyager 1 and Voyager 2, furthered our knowledge of the ringed 
planet by detecting a magnetic field and revealing more details about 
Saturn's complex moons and rings. The Voyagers found ring particles 
ranging in size from nearly invisible dust to icebergs the size of a 
house.
The Ringed Planet
    Saturn is the sixth planet from the Sun and is 9.5 times farther 
away from the Sun than Earth. From Saturn, the Sun is about 1/10th the 
size of the Sun we see from Earth. Sunlight spreads as it travels 
through space; because of this fact, the same light-driven chemical 
processes in Saturn's atmosphere take 90 times longer than they would 
at Earth. The farther away from the Sun, the slower a planet travels in 
its orbit. Saturn's year is equal to 29.46 Earth years.
    Saturn has the lowest density of all the planets and has a vast, 
distended, hydrogen-rich outer layer. Like the other giant planets, 
Saturn contains a core of heavy elements including iron and rock of 
about the same volume as Earth, but having three or more times the mass 
of Earth.
    Scientists believe that the core of molten rocky material is 
covered with a thick layer of metallic liquid hydrogen and, beyond 
that, a layer of molecular liquid hydrogen. This conductive liquid 
metallic hydrogen layer, which is also spinning with the rest of the 
planet, is believed to be the source of Saturn's magnetic field.
    Temperature variations in Saturn's atmosphere are the driving force 
for the winds and thus cloud motion. The lower atmosphere is hotter 
than the upper atmosphere, causing gases to move vertically. 
Temperature variations, combined with the planet's rapid rotation rate 
(a Saturn day is only 11 hours), are responsible for the high wind 
speeds in the atmosphere.
Titan
    Saturn's moon Titan presents an environment that appears to be 
unique in the Solar System, with a thick hazy atmosphere containing 
organic compounds, a possible organic ocean or lakes and a rich soil 
filled with frozen molecules, similar to what scientists believe led to 
the origin of life on Earth. In the three centuries since the discovery 
of Titan, we have come to see it as a world strangely similar to our 
own, yet located almost 900 million miles from the Sun. With a thick, 
nitrogen-rich atmosphere, possible seas and a tar-like permafrost, 
Titan is thought to harbor organic compounds that may be important in 
the chain of chemistry that led to life on Earth.
    Titan has been described as having an environment similar to that 
of Earth before biological activity forever altered the composition of 
Earth's atmosphere. The major difference on Titan, however, is the 
absence of liquid water and Titan's very low temperature. Thus there is 
no opportunity for aqueous chemistry at Earth-like temperatures--
considered crucial for the origin of life as we know it. Scientists 
believe that the surface temperatures on Titan are cold enough to 
preclude any biological activity whatsoever at Titan.
    The opacity of Titan's atmosphere is caused by naturally produced 
photochemical smog. With Titan's smoggy sky and distance from the Sun, 
a person standing on Titan's surface in the daytime would experience a 
level of daylight equivalent to about 1/1,000th the daylight at Earth's 
surface.
    The surface of Titan was not visible to Voyager at the wavelengths 
available to Voyager's cameras. What knowledge existed about the 
appearance of the surface of Titan prior to July 1 of this year came 
from Earth-based radar measurements and more recent images acquired 
with the Hubble Space Telescope at wavelengths longer than those of 
Voyager's cameras. Hubble images from 1994 and later reveal brightness 
variations suggesting that Titan has a large continent-sized region on 
its surface that is distinctly brighter than the rest of the surface at 
both visible and near-infrared wavelengths.
    Titan's orbit takes it both inside and outside the magnetosphere of 
Saturn. When Titan is outside the magnetosphere and exposed to the 
solar wind, its interaction may be similar to that of other bodies in 
the Solar System such as Mars, Venus or comets (these bodies have 
substantial interaction with the solar wind, and, like Titan, have 
atmospheres but no strong internal magnetic fields).
    The interaction of Titan with the magnetosphere provides a way for 
both the magnetospheric plasma to enter Titan's atmosphere and for 
atmospheric particles to escape Titan. Voyager results suggested that 
this interaction produces a torus of neutral particles encircling 
Saturn, making Titan a potentially important source of plasma to 
Saturn's magnetosphere. The characteristics of this torus are yet to be 
explored and will be studied by the Cassini orbiter. The interaction of 
ice particles and dust from Saturn's rings will play a special role as 
the dust moves out towards Titan's torus and becomes charged by 
collisions. When the dust is charged it behaves partially like a 
neutral particle orbiting Titan according to Kepler's laws (gravity 
driven), and partially like a charged particle moving with Saturn's 
magnetosphere. The interaction of dust with Saturn's magnetosphere will 
provide scientists with a detailed look at how dust and plasma 
interact.
    Titan may have its own internally generated magnetic field. Recent 
results from the Galileo spacecraft at Jupiter indicate the possibility 
of an internally generated magnetic field associated with the moon 
Ganymede. For Titan there are two possibilities: A magnetic field could 
be induced from the interaction of Titan's substantial atmosphere with 
the flow of Saturn's magnetosphere (like Venus's interaction with the 
solar wind); or a magnetic field could be generated internally from 
dynamo action in a fluid core (like Earth's). (Under the dynamo theory, 
a magnetic field is created by the circling motion of electrically 
conductive fluid in the core.) In addition to being important to 
understanding the Titan interaction with Saturn's magnetosphere, a 
Titan magnetic field, if generated internally, would help scientists 
define the natural satellite's interior structure.
The Rings
    From a distance, the majestic rings of Saturn look like symmetrical 
hoops surrounding the planet. In the best, most recent pre-Cassini 
images, the rings appear to be a still splendid but somewhat unruly 
population of ice and rock particles jostling against each other or 
being pushed and pulled into uneven orbits by bigger particles and by 
Saturn's many moons.
    The mass of all the ring particles measured together would comprise 
a moon about the size of Mimas, one of Saturn's medium-small moons. The 
rings may, in fact, be at least partly composed of the remnants of such 
a moon or moons, torn apart by gravitational forces.
    Their precise origin is a mystery. It is not known if rings formed 
around Saturn out of the initial Solar System nebula, or after one or 
more moons were torn apart by Saturn's gravity. If the rings were the 
result of the numerous comets captured and destroyed by Saturn's 
gravity, why are Saturn's bright rings so different in nature from the 
dark rings of neighboring planets? Over the lifetime of the rings, 
comets and meteors must have bombarded them continually, and therefore 
they should have accumulated a great amount of carbon containing, rocky 
debris. However, spectra of the rings indicated a composition of about 
98 percent water ice. Saturn's rings, as well as the rings of all the 
other large planets, may have formed and dissipated many times since 
the beginning of the Solar System. Studies of the main rings show that 
the ring system is not completely uniform in its makeup and that some 
sorting of materials within the rings exists. Why such a non-uniform 
composition exists is unknown.
The Very Recent Past
    In recent months, as Cassini drew near to its destination it began 
returning images that exceeded the resolution of the best earth and 
space based telescopes. This color ``postcard'', sent in February 2004, 
offers one of the most stunning images ever of the mysterious ringed 
planet. Even though Saturn loomed larger than ever, Cassini was still 
more than 43 million miles away!
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Two months later, the spacecraft was close enough to observe two 
storms in the act of merging into one storm. This is only the second 
time in history that this phenomenon has been observed on Saturn. While 
storms on Earth have a relatively short lifespan, storms in the giant 
planet atmospheres last much, much longer and often merge rather than 
just dissipate.
    In June, Cassini did a flyby of Saturn's moon Phoebe, thus 
completing the first satellite flyby of its four-year prime mission. Up 
close and personal, Cassini revealed that Phoebe's surface is covered 
with craters of varying sizes, probably from meteorite impacts. The 
images led scientists to believe that the tiny object contains water 
ice, as was expected, overlain in many areas with one or more thin 
layers of darker material that may have been ejected from the depths of 
the craters by impact events. . The evidence thus far has strengthened 
the belief that Phoebe may have originated in the outer Solar System, 
perhaps in the Kuiper Belt, and been captured by Saturn's gravity.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The spacecraft navigators consider the tour to have begun with the 
trajectory correction maneuver that targeted Phoebe in May 2004. The 
rich science returned from the Phoebe encounter justifies this 
viewpoint.
Bull's-eye
    After almost seven long years and a journey of more than 2 billion 
miles, the 12,000-pound Cassini-Huygens spacecraft successfully entered 
orbit around Saturn at 7:26 PDT on June 30. The Saturn Orbit Insertion 
maneuvers were orchestrated and executed with flawless precision. After 
what seemed like an eternity, flight controllers received confirmation 
that Cassini had completed the 96-minute engine burn and been 
successfully captured into the correct orbit. And thus began a new 
chapter in space exploration: a four-year study of the giant planet, 
its majestic rings, and its 31 known moons.
Early Results
    Just two days after the Cassini spacecraft entered Saturn's orbit, 
preliminary science results were already beginning to show surprises. 
The complexity of the rings exceeded our wildest imagination. While a 
large number of rings and much structure in the rings were expected, 
high-resolution pictures show thousands of alternating light and dark 
bands. Theories of ring formation, dynamics, and structure may have to 
be completely revised.
    Another early result intriguing scientists concerns Saturn's 
Cassini Division, the large gap between the A and B rings. While 
Saturn's rings are almost exclusively composed of water ice, new 
findings show the Cassini Division contains relatively more ``dirt'' 
than ice. Furthermore, the gaps between the rings seem to be populated 
by darker particles remarkably similar to the dark material that 
scientists saw on Saturn's moon, Phoebe. These dark particles refuel 
the theory that the rings might be the remnants of a moon. The F ring 
was also found to contain relatively more dirt. The term ``dirt'' has 
been used because the material has thus far defied precise spectral 
identification. It is almost certainly an amorphous, and spectrally 
very challenging, mixture.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The next day, Cassini revealed surface details of Saturn's moon, 
Titan. Titan's dense atmosphere is opaque at most wavelengths, but the 
spacecraft captured some surface details, including possible evidence 
for a geologically active surface, through infrared wavelengths in 
which the atmosphere is clear.
    A number of long-held ideas were challenged by the early Titan 
results. Surface areas of high reflectance were found to be composed of 
mixtures of water ice and hydrocarbon tar. Dark areas were found to be 
just ice. These observations are exactly backwards from our 
expectations. No evidence was found for liquid hydrocarbons in pools or 
lakes. These results have raised questions about whether Titan 
possesses a primordial soup of hydrocarbons that could yield insights 
about the pre-biotic chemistry of earth. This Titan flyby, the first of 
the tour, was at a closest approach distance of 200,000 miles. The tour 
includes numerous Titan flybys; some, including an upcoming pass in 
Oct. 2004, will be as close as 700 miles. If all goes well we can 
expect far better data in the near future and it may be premature to 
draw any major conclusions about Titan as an early earth analogue.
    Cassini's magnetospheric imaging instrument revealed a vast diffuse 
swarm of hydrogen molecules surrounding Titan, well beyond the top of 
Titan's atmosphere. This instrument, the first of its kind on any 
interplanetary mission, provided images of the huge cloud being dragged 
along with Titan in its orbit around Saturn. The cloud is so big that 
Saturn and its rings would fit within it.
What Next?
    On Christmas Day in Europe and Christmas Eve in the US, Cassini 
will release the European-built Huygens probe which will coast for 3 
weeks and then parachute down through Titan's atmosphere. The recent 
SOI was NASA's opportunity to shine and the Huygens probe mission will 
be Europe's opportunity. Huygens is equipped with six scientific 
instruments powered by batteries with a five-hour lifetime. The descent 
will take about 2\1/2\ hours. Huygens was designed to take data 
continuously during descent through the atmosphere and it is hoped that 
it will also survive the landing and return data from the surface. The 
Huygens mission will enhance the value of the Cassini mission, and vice 
versa. Both scientifically and operationally, Cassini/Huygens is a true 
international collaboration involving 260 scientists from 17 nations. 
The missions are thoroughly integrated; many Europeans are on Cassini 
science teams and many Americans are on Huygens science teams.
    We are delighted with the surprises thus far revealed by the 
Cassini mission. Surprise is at the very heart of science. If there 
were no surprises, it wouldn't be science. At this moment Cassini is on 
a long path outward before it will turn around and again come inward 
toward Saturn on its way to the next Titan encounter. Let us catch our 
breath and prepare for more astonishing discoveries.

    Senator Brownback. So how long will you spend this first 
time going around Saturn then with Cassini? What's the length 
of time you'll go around?
    Mr. Figueroa. The present orbit is approximately 120 days.
    Senator Brownback. You'll stay there before you'll do a 
burn to go out to Titan, or how will you do that?
    Mr. Figueroa. No, we keep making adjustments around in the 
present orbit outside of the rings and coming in closer to the 
Titan moon as one of the flybys. Mark, you may want to add more 
information.
    Mr. Dahl. We have a maneuver. Because the Saturn orbit 
insertion was so close to the planet, we have a maneuver coming 
up in about 4 weeks that will raise the low end of the orbit. 
The first orbit is about, as Orlando said, about 120 days, and 
then the next time around we stay at the low end of the orbit 
is approximately the orbit of Titan. So about every time we 
come around we swing by Titan.
    Senator Brownback. So you're staying in the same orbit, 
just you will encounter at different times because you're in 
the same orbital height or orbital distance from Saturn?
    Mr. Dahl. No, sir. We actually use Titan to change the 
orbit, so every orbit of Saturn will be unique. Some of the 
orbits will have different angles with relation to Saturn so 
that we'll get better looks at the rings. Some orbits will be 
further out on the back side of Saturn so that we can study the 
magneto tail. Some of the orbits will get as short as 7 days 
close to the end of the 4-year tour. So we'll be quite busy and 
every orbit will be unique. We use Titan itself as a gravity 
pump to save fuel and change our orbit.
    Senator Brownback. Now, you will go around Saturn and be 
doing this discovery for a period of about 4 years, and then 
what's the plan at that point in time?
    Mr. Figueroa. Typically, our missions such as this one, to 
the extent that they're healthy, the limiting factor in this 
case will be the fuel, how much fuel we have left. We intend to 
keep them alive for as long as we possibly can. It's a 
valuable, incredibly capable observatory, and we will squeeze 
as much science out of it as we possibly can.
    Senator Brownback. It looks like it's worked great now, and 
I think of something that launched 7 years ago and the burn 
goes well after 7 years--that's impressive to be able to keep 
that going.
    Go into more detail of what you're learning thus far on 
Titan in particular. The pictures you've got up here, they look 
very--you've got an atmosphere layer and then kind of a green 
and yellow and now it's different colors up here. I don't know 
the actual colors of what they are. But go into a little more 
detail if you would of what we're learning all on Titan.
    Dr. Bogan. The colors are----
    Senator Brownback. Get the microphone up close to you.
    Dr. Bogan. The colors indicate the different infrared 
wavelengths that were used. The longest wavelength penetrates 
to the greatest depth through the clouds and the haze. And so 
what you do experimentally is you look at longer and longer 
wavelength images, and when they begin to show the same shapes 
over and over again, you know that you've reached the surface. 
If those further change, you would know that you were looking 
at a cloud and at the longer wavelength you'd penetrated 
deeper.
    So in those composites you see evidence of a crater. At the 
top center there is a large crater which you can faintly make 
out with a peak in the middle of it with an impact at some time 
in the moon's history, and extending diagonally below that, you 
see evidence of a ridge or a rift in the surface. And the 
scientists working on this believe that may be evidence of 
geologic activity.
    The variations between the green and the yellow indicate 
the composition, whether it's relatively more water ice, or 
whether it's relatively more hydrocarbon. We have not yet seen 
evidence of pools of liquid hydrocarbon, but there is 
definitely hydrocarbon there on the surface, most likely in the 
form of frost or saturated soil.
    We're going to get 300 times closer to Titan on the next 
pass and we're very excited about that because we're going to 
get data, given successful operation of the instruments, which 
we have every reason to expect the data will be far beyond 
anything we've seen so far.
    Senator Brownback. And then you put the probe down in 
December?
    Dr. Bogan. That's right.
    Senator Brownback. Tell me about how that will operate and 
what you will be doing with that probe.
    Dr. Bogan. That probe will be released on the third pass by 
Titan. It will coast for about 3 weeks and then enter the upper 
atmosphere. The atmosphere of Titan is very extended and it's 
denser than that of Earth, about 50 percent more dense than 
Earth, and extends to a very high altitude because of the 
relatively weaker gravity of a smaller body.
    Senator Brownback. So how high up is this atmosphere?
    Dr. Bogan. There may be traces of it at several hundred 
kilometers, 500 to 700 kilometers. The closest passes will be 
about 950 kilometers, and that number was chosen so as to avoid 
aerodynamic drag from the upper atmosphere upon the spacecraft. 
And once that probe is in the atmosphere, it will deploy a 
parachute, the parachute will slow its descent. The descent 
will take 2\1/2\ hours and data will be sent back continuously 
to the Cassini spacecraft, which will then relay the data to 
Earth. The batteries are designed for a 5 hour lifetime, and so 
if there is a successful landing, a landing that survives and 
the instruments continue to operate, we'll get a couple of 
hours of data from the surface itself.
    Senator Brownback. And what type of data will it send back 
if all things work?
    Dr. Bogan. There's an aerosol pyrolyzer, there is a gas 
chromatograph mass spectrometer, which will determine chemical 
compositions. There are inertial sensing instruments such that 
we can determine the structure of the atmosphere, the winds 
that will buffet the probes as it drops through the atmosphere. 
There will be cameras and all of this information will be sent 
back to Cassini, the orbiter, and it can be relayed to Earth at 
leisure.
    Mr. Figueroa. It should be a very exciting part of the 
mission as well and I must remind all of us that the probe is 
not designed to be a lander, so we may get lucky and survive 
wherever we land on the surface and get a few more minutes, 
perhaps if we're lucky an hour, of additional data from the 
surface itself.
    Senator Brownback. What the probe is going to be doing is 
when it's coming down through the atmosphere, that's your main 
data collection time?
    Mr. Figueroa. Taking data throughout the whole entry period 
and for as long as half an hour after it gets to the surface if 
it survives.
    Senator Brownback. Can you back up to the rings on the 
picture that you had earlier up there, is that possible? Go 
through that again. You were saying that there are ripples in 
this that you had seen before but now they've come through much 
clearer, and what does that indicate?
    Mr. Figueroa. This is known as the Encke gap, and I will 
let Dr. Bogan explain what the significance of those ripples 
are.
    Dr. Bogan. We talk about shepherding moons when we talk 
about the rings and the moons moving through this material 
sweep clean a space near their path, and we have seen in many 
instances a kind of a scalloping of the edge of the ring where 
the moon passes by. Particles that get too close to the 
orbiting moon will either get attracted to it and stick, or 
they will get ejected from that region in space. So there is 
very complex dynamics going on, and even within the rings, the 
particles within those rings, which may be as large as a house 
at the largest and baseballs, marbles, bee-bees, and very small 
dust, and there are dynamics and motion and collisions going on 
among these.
    So it's hard to imagine, given a scenario like that, how 
you could see regular geometric features that presumably 
persist for long periods of time, and the ring experts are 
working very hard right now. They were amazed at the detail of 
the ring pictures. They saw literally thousands of ringlets as 
opposed to the dozen or so identified rings that we have named 
based on our observations from Earth-based telescopes.
    Senator Brownback. Why thousands? I mean, what do you 
speculate?
    Dr. Bogan. Very good question. But there are alternating 
light and dark bands, and you can count them, and there are 
literally thousands of them.
    Senator Brownback. And we don't know what makes the 
different rings and the different colors?
    Dr. Bogan. Well, we do--there is a nice infrared map 
showing the water content of the rings. Water ice makes up 
about 99 percent or 98 percent of the rings as a whole, but 
there are dirtier regions, and the people looking at this have 
so far settled on the name dirt because they haven't obtained a 
good spectral identification. They are working hard on that. 
But there are definitely variations between water ice and this 
foreign material or dirt material, whatever you want to call 
it, as we go from the innermost rings to the outermost.
    Senator Brownback. Why is it flat like that? What do you 
speculate? I mean, it appears flat.
    Dr. Bogan. It does appear flat, it's very thin, the ring 
plane is very thin and most of it's----
    Senator Brownback. How fixed are you guesstimating, or do 
you have a measure on that?
    Dr. Bogan. --a few hundred meters to a few kilometers. And 
it's probably an angular momentum effect where that ring sits 
right above the equator of the planet, and that's where it has 
a stable dynamic situation where it can persist.
    Mr. Figueroa. In celestial scales, several hundred meters 
or kilometers is a rather thin----
    Dr. Bogan. Yes, very thing.
    Mr. Figueroa. Mother Nature seems to achieve states where 
it's minimum energy, and so you would see these rings closes to 
the equator of a planet and remaining a flat form, just like 
when our solar system formed where the planets tend to be in 
that plane in order around the sun.
    Senator Brownback. Do we know--do you have theories on 
where the material came from that's in the rings?
    Dr. Bogan. The theory of solar system formation, for which 
we think this is an analog, is that material is left over after 
a planet formation. In the case of Saturn, there's material 
left over after a satellite formation. Or perhaps some of the 
smaller satellites get broken up by collisions with one another 
and the fragments wind up in rings. Other planets have rings, 
Jupiter, Uranus, and Neptune have identified rings. Those are 
other giant planets, but none of them has rings to the extent 
of these very dramatic and bright rings around Saturn, so we 
have much to learn.
    Senator Brownback. And you don't have a working theory as 
to why these rings are so----
    Dr. Bogan. There are theories, and in fact, we see even in 
distant galaxies we see disks around stars that we believe are 
the early stages of planetary system formation. And these 
situations, Saturn and its rings may very well be a laboratory 
where we can better understand the dynamics of what's happening 
in distant galaxies when these planetary systems form.
    Senator Brownback. Mr. Figueroa, how's the international 
cooperation been on this project? How would you scale that?
    Mr. Figueroa. I think it has been exemplary. From the very 
beginning, the partnership with ESA, the European Space Agency, 
the Italian Space Agency, and the other 14 countries have been 
excellent at all levels, at the programmatic levels, 
scientific, engineering-wise, and we continue to collaborate 
very closely of course to ensure the safe arrival of the 
Huygens probe to Titan, and the continued support in providing 
and exchanging data and knowledge with our colleagues. It has 
been simply excellent.
    Senator Brownback. And what's the funding mix on this 
mission?
    Mr. Figueroa. The total mission cost is approximately $3.3 
billion, .7 of which is contributed largely by ESA, about $550- 
to $600 million, and the balance the Italian Space Agency. 
Other countries have smaller components, but nevertheless very 
important to the mission.
    Senator Brownback. What has been the public response thus 
far in the mission? You got dramatic response on the Mars 
Rover. What about on this one?
    Mr. Figueroa. Actually we're pumping the images as soon as 
we receive them, as soon as possible after receipt we were 
putting them on the Web and the traffic on the Web also 
increased significantly, matching in some cases the kind of 
response we got to the Rovers when they arrived on Mars.
    Now, a few days later after we entered the Saturn orbit, 
the spacecraft hid behind the sun and it was hard to see it, so 
there was a period, a quiet period, and we will start picking 
up again in the next few days and we will get to see equally, 
if not more exciting, images coming back. The calls and the 
interest, judging by the traffic on the website and the 
questions we have received and the press requests, have been 
very high.
    Senator Brownback. What's your Web traffic for this 
particular, do you know?
    Mr. Figueroa. I do not recall the exact number. Do you 
know?
    Mr. Dahl. I believe that the first 5 days the NASA website 
experienced over one billion hits.
    Senator Brownback. Just for this or that's the broad----
    Mr. Dahl. Just for Cassini.
    Senator Brownback. They're dramatic pictures. It seems that 
the conditions on Saturn's moon, Titan, are pretty harsh. Even 
so, do any scientists believe life may exist there in some 
different or strange form?
    Mr. Figueroa. I think, and Dr. Bogan can expand a little, 
but we know the primordial materials may be present and perhaps 
giving us clues as to what the early conditions may have been 
when life started emerging on Earth during the early days of 
our planet.
    Dr. Bogan. Yes, when we say primordial material, we mean 
material that's never been close to the sun and therefore never 
been warmed up and altered by chemistry and various physical 
processes. So the Earth's atmosphere is very different than the 
early Earth and we call Earth's atmosphere an evolved 
atmosphere. Titan's is primitive. And we're looking for the 
chemical building blocks of life, the organic materials, the 
hydrocarbons, and the temperatures are however low enough that 
nobody believes at the present time that life exists there now 
or that it could exist at those temperatures.
    There is some hope of finding a liquid water ammonia 
mixture below the surface in the interior, in the sense that we 
have found water in the interior of some of the Galilean 
satellites of Jupiter. That material would have to be warmed by 
something, and the theory is that there is enough radiologic 
heat from radioactive elements within the core of Titan that it 
is possible there could be liquid water ammonia solutions. But 
no one is expecting life there.
    Senator Brownback. What's the temperature on Titan roughly?
    Dr. Bogan. It's less than 100 degrees Kelvin, which is 350 
degrees or so Fahrenheit below zero.
    Senator Brownback. Well, congratulations. I think it has 
been exciting to see and to take place. Mr. Figueroa, anything 
else on this Saturn mission or the Titan probe that you'd like 
to put into the record?
    Mr. Figueroa. Well, when we speak of space exploration, and 
even though the Cassini mission began before the new vision for 
space exploration, it certainly is a key component of it and 
illustrates the power of knowledge, the power of ingenuity, and 
the power of collaboration to help us expand beyond our own 
orbit. We began with pieces of Mars, now the moon, and of 
course the outer planets remain incredibly important to the 
understanding of the solar system we live in.
    Senator Brownback. Do you have other missions going to 
other places in the solar system right now?
    Mr. Figueroa. In 2000--not at the present time. We have in 
2006 the launch of the New Horizons mission to Pluto.
    Senator Brownback. And that will take how many years to get 
there?
    Mr. Figueroa. It is approximately 12 years.
    Dr. Bogan. Ten to twelve. And it will depend on the exact 
launch window date that eventually is selected.
    Senator Brownback. And you've got a lunar reconnaissance 
orbiter you're doing in 2008?
    Mr. Figueroa. In 2008.
    Senator Brownback. I noted that the Chinese are sending an 
orbiter to the moon sooner than that period of time, I believe. 
Is that accurate?
    Mr. Figueroa. I'm not aware of a Chinese mission. I'm 
aware, of course, of a European mission, Smart I, the Celine, 
and Lunar A, both Japanese missions that are planned.
    Senator Brownback. When are they planned for?
    Mr. Figueroa. Celine at the moment, due to budgetary 
problems, are sort of in limbo, and the Celine mission is 
presently scheduled for launch in 2007. Also, budgetary 
challenges may alter that. We have begun discussions with them. 
We have an ongoing partnership on Lunar A and would like to 
establish a similar one for Celine. There is a great deal of 
data and information that will be valuable to the long-term 
vision of space exploration, beginning with the moon.
    Senator Brownback. I noted to you in the opening statement 
that--wondered why we didn't follow--or are not following in 
the design of the lunar reconnaissance orbiter for 2008 more of 
the Aldridge Commission reports or suggestions to involve much 
more of the private sector in the data purchases. In other 
words, you'd contract it with the private sector and say we're 
going to purchase data from you.
    Thoughts? I'm sure you must have considered that in NASA 
putting together this lunar probe.
    Mr. Figueroa. In our view, data for that mission may not be 
realistic. We have chosen an approach that we believe was the 
best balance of risk and programmatic and technical risk and 
delivering the key measurements that we need to get the first 
steps in the lunar exploration program going.
    Now, I am aware of concerns that exist such as the one that 
you mentioned and are looking at other alternatives.
    Senator Brownback. Have you reviewed already the 
possibility of going more private sector and just purchasing 
data back from them? Have you reviewed that idea?
    Mr. Figueroa. We will be over the next few months looking 
at that idea. We took a look at greater private sector 
contributions to the mission, different components on the 
mission, even though I think it's fairly significant at the 
present time. Going as far as data buy, we made an assessment 
based on what we have learned in the past, missions such as Sea 
Waves and LANDSAT, where the returns that were expecting never 
really materialized and ended up being incredibly expensive and 
ineffective.
    Senator Brownback. Go into that in more detail. The returns 
you expected didn't materialize?
    Mr. Figueroa. Well, it ended up being significantly more 
expensive to the government and never achieving the full 
potential that was expected. This is in a full data-buy mode. 
Now, whether there are other approaches that we can look at the 
mission, we will be looking at that over the next couple of 
months.
    Senator Brownback. I just want to make sure that you are 
looking at that, because that's something that was outlined and 
we've been talking about, others have been too, that if we can 
trail blaze and then leave some infrastructure behind. Now, if 
it doesn't work, if it's too expensive for us, obviously we 
don't want to go those routes. But if there are ways that we 
can do that, that can be useful to do.
    Gentlemen, thank you very much. I wanted to do this after I 
saw these pictures and images and stories coming out in the 
press. I wanted to bring you up here to be able to see it, but 
also to congratulate you and give you a chance to show off what 
all you've been getting, and that's a remarkable achievement, I 
think, when you launch something 7 years ago and it still 
works, it does what you planned on it to do. I don't think my 
minivan will get that done after using it for 7 years. I think 
we've put a little more into this than that one costs, but 
still that's an impressive scientific achievement, and it is 
opening our eyes and yearning us on forward into the solar 
system. So another milestone achieved. Congratulations.
    Mr. Figueroa. Thank you very much, Mr. Chairman, for the 
opportunity. It's a pleasure to be here.
    Senator Brownback. We will keep the record open if others 
have questions to submit to you or if you have other things you 
want to submit for the record. Otherwise, the hearing is 
adjourned.
    [Whereupon, at 3:15 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
